                                     SOCIAL SECURITY

MEMORANDUM

Date:   September 30, 2010                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The
           Social Security Administration’s Plan to Reduce Improper Payments Under
        Executive Order 13520 (A-15-10-20163)


        The attached final quick response evaluation presents the results of our review. Our
        objectives were to review the Accountable Official’s Annual Report to the Office of the
        Inspector General, as required by Executive Order 13520, Reducing Improper
        Payments, and determine whether the (1) figures presented were accurate and
        (2) Agency complied with all requirements of the Executive Order.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
      QUICK RESPONSE
       EVALUATION
The Social Security Administration’s Plan
  to Reduce Improper Payments Under
         Executive Order 13520

              A-15-10-20163




              September 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                Background
OBJECTIVE
Our objectives were to review the Accountable Official’s Annual Report to the Office of
the Inspector General (OIG), as required by Executive Order 13520, Reducing Improper
Payments, and determine whether the (1) figures presented were accurate and
(2) Agency complied with all requirements of the Executive Order.

BACKGROUND
On November 20, 2009, the President issued Executive Order 13520. 1 When the
Government makes payments to individuals and businesses, such as program
beneficiaries, grantees, or contractors, or on behalf of program beneficiaries, it must
make every effort to confirm that the right recipient is receiving the correct payment.
The purpose of this Executive Order is to reduce improper payments by intensifying
efforts to eliminate payment error, waste, fraud, and abuse in the major Government-
administered programs, while continuing to ensure that Federal programs serve and
provide access to their intended beneficiaries. 2

As part of the requirements of the Executive Order, each agency with a high-priority
program identified by the Office of Management and Budget (OMB) shall provide the
agency’s OIG a report containing the

1. methodology for identifying and measuring improper payments by the agency’s high-
   priority programs;
2. plan, along with supporting analysis, for meeting the reduction targets for improper
   payments in the agency’s high-priority programs; and
3. plan, along with supporting analysis, for ensuring the initiatives undertaken pursuant
   to this order do not unduly burden program access and participation by eligible
   beneficiaries.

Each agency head is also required to submit to the agency’s OIG and the Council of
Inspectors General on Integrity and Efficiency (CIGIE) a report on high-dollar improper
payments identified by the agency, subject to Federal privacy policies and to the extent
permitted by law. Agencies are also required to place a prominently displayed link on
their Internet homepages to Internet-based resources for addressing improper
payments, including the Website published by the Secretary of the Treasury in
coordination with the Attorney General and the Director of OMB. 3

1
    Federal Register Vol. 74, No. 226, 74 FR 62201.
2
    Executive Order 13520, Section 1.
3
    Executive Order 13520, Sections 2(d), 3(b) and 3(f).


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)        1
HIGH-PRIORITY PROGRAMS

The Director of OMB will determine high-priority programs annually based on improper
payment reporting in agencies’ annual Performance and Accountability Report (PAR) or
Agency Financial Report (AFR). OMB will classify a program as high-priority if the
program meets the following criteria.

1. It is susceptible to significant improper payments, as defined by legislation and OMB
   implementing guidance and either:
          •   Measured and reported errors above the threshold determined by OMB and
              contributed to the majority of improper payments in the most recent reporting
              year; or
          •   Has not reported an improper payment dollar amount in the most recent
              reporting year but has, in the past, reported errors above the threshold
              determined by OMB and not received relief from OMB from measuring and
              reporting; or
          •   Has not yet reported an overall program improper payment dollar amount, but
              the aggregate of the measured program’s component errors are above the
              threshold.
2. For those programs with error amounts close to the threshold, but with error rates
   below 2 percent of program outlays, agencies may work with OMB to determine
   whether the program can be exempt from fulfilling certain requirements of the
   Executive Order.

The Fiscal Year (FY) 2010 threshold was $750 million in improper payments as
reported in each agency’s PAR or AFR. 4

IMPROPER PAYMENTS

Each year, the Social Security Administration (SSA) reports payment accuracy rates for
both the Retirement, Survivors and Disability Insurance (RSDI) and Supplemental
Security Income (SSI) programs based on its stewardship reviews. The Agency used
the reviews as the basic measure to report on the accuracy of benefit payments. Each
year, SSA reports over- and underpayments from its stewardship reviews of nonmedical
aspects of the Retirement and Survivors Insurance (RSI), Disability Insurance (DI), and
SSI programs. In accordance with OMB’s guidelines implementing the provisions of the
Improper Payments Information Act of 2002 (IPIA), 5 SSA reports payments that should
not have been made or payments that were made in an incorrect amount as improper.
Stewardship review findings provide the basis for reports to Congress and other

4
 OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix C, Part III,
Requirements for Implementing Executive Order 13520: Reducing Improper Payments, Section (A)(1)(e).
5
    Pub. L. No. 107-300, 31 U.S.C. § 3321 note.



SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)               2
monitoring authorities. The Agency also used data from these reviews in corrective
action planning and in monitoring performance, as required by the Government
Performance and Results Act of 1993. 6

Payment accuracy rates developed in SSA’s stewardship reviews reflect the accuracy
of payments issued to RSDI beneficiaries and SSI recipients who received or were
issued a payment for the sample month. The Agency selects a statistically valid
national sample monthly from the payment rolls, which consist of RSDI and SSI
beneficiaries in current pay status. For each sample selected, the recipient or
representative payee is interviewed; collateral contacts are made, as needed; and all
nonmedical eligibility factors are redeveloped as of the current sample month. The
Agency inputs the findings into a national database for analysis and report preparation.
Separate rates are determined for accuracy of payments in terms of over- and
underpayment dollars.




6
    Pub. L. No. 103-62.


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)     3
                                                          Results of Review
Overall, our review determined that the Agency generally presented the required
information in the Accountable Official’s Annual Report to the OIG 7 under Executive
Order 13520 accurately. Specifically, we reviewed the Annual Report to ensure the
Agency adequately addressed all requirements of the Executive Order and accurately
reported the information.

REQUIREMENTS OF EXECUTIVE ORDER
In March 2010, OMB issued guidance8 for implementing the requirements of the
Executive Order. We reviewed the Accountable Official’s Annual Report, issued on
May 18, 2010, to ensure the Agency addressed all requirements of the Executive Order.

Methodology for Identifying and Measuring Improper Payments

The first requirement issued by OMB states that the Annual Report must contain a
description of the Agency’s methodology for identifying and measuring improper
payments by the Agency’s high-priority programs. This information should include the
IPIA program error measurement methodology, sample size, and related calculations,
results of annual measurements, and applicable other measurement-related
information.

In its Annual Report, SSA described the stewardship reviews that it used to measure
the accuracy of payments to beneficiaries in current payment status. Each FY, the
Office of Quality Performance (OQP), conducted stewardship reviews of both the RSDI
and SSI payments issued in that FY. OQP based the stewardship reviews on a monthly
sample selection from the RSDI and SSI recipients in current pay status. Each month,
OQP reviewed about 88 RSI cases, 45 DI cases, and 360 SSI cases to determine
payment accuracy rates. If OQP detected an error, it determined whether the payment
error met the definition of improper (Appendix D). If a program payment was not
considered unavoidable, 9 it was included in the projection of improper payment dollars.

The Annual Report presented the payment accuracy results from the stewardship
reviews through tables titled, “Improper Payments Experience FY 2006 – FY 2009.”
This information, along with the description of the Agency’s methodology for identifying
and measuring improper payments for high-priority programs, adequately satisfied
OMB’s first requirement.

7
 The Annual Report to the OIG can be found on the Agency’s Improper Payments Website,
http://www.ssa.gov/improperpayments/.
8
 OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix C, Part III,
Requirements for Implementing Executive Order 13520: Reducing Improper Payments.
9
 Unavoidable payments are payments that result from legal or policy requirements. These payments are
not considered “erroneous” by SSA.


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)                4
Plan for Meeting the Reduction Targets for Improper Payments

The second OMB requirement states that the Annual Report must contain the agency’s
plan and supporting analysis for meeting the reduction targets for improper payments.
This requirement includes

1. root causes of errors in the program;
2. corrective actions that are being implemented and their full implementation dates;
3. the types of errors the corrective actions will address and their expected impact;
4. the anticipated costs of the corrective actions and their likely return on investment;
   and
5. an explanation of the program’s performance in meeting its reduction targets.

The Agency met this requirement by reporting all applicable information for the RSDI
and SSI programs.

RSDI

On April 22, 2010, SSA confirmed with OMB that the Agency was not required to
establish supplemental measures and targets for RSDI because the payment accuracy
rate was below OMB’s threshold of 2 percent of program outlays. However, SSA still
fulfilled other transparency-related reporting by describing root causes of over- and
underpayments.

Based on SSA’s Annual Report, the main root causes of RSDI overpayments were
substantial gainful activity (SGA), computations, Government Pension Offset (GPO),
and relationship/dependency. The main root causes of RSDI underpayments were
computations, wages, self-employment income (SEI), and workers’ compensation. To
mitigate these improper payments, SSA identified various areas to analyze for potential
reduction in payment errors. These areas included

1. improvements in the work verification process;
2. simplification of the work continuing disability review (CDR) process; and
3. implementation of a quarterly interface match between the Office of Child Support
   Enforcement’s National Directory of New Hires and SSA’s Master Earnings File
   (MEF).

SSI

The Annual Report also describes the main root causes of SSI error dollar over- and
underpayments. The major causes of SSI overpayments were excess financial
accounts, wages, and in-kind support and maintenance (ISM). The main causes of SSI




SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)          5
underpayments were wages, living arrangement “A,”10 and ISM. The Agency
developed supplemental measures and targets to help mitigate improper payments in
the two consistently high error categories: excess financial accounts and wages. These
supplemental measures included (1) access to financial institutions (AFI) and (2) SSI
Automated Telephone Wage Reporting System (SSITWR).

        AFI is an electronic process that verifies bank account balances with financial
institutions to determine SSI eligibility. AFI also detects undisclosed accounts by using
a geographic search to generate requests to other financial institutions nearest the
residence address. As of July 2010, the Agency had implemented AFI in three States:
California, New Jersey, and New York. By the end of FY 2010, SSA will expand AFI to
14 additional States. This would represent approximately 65 percent of all SSI
recipients. Expansion of AFI will continue into FY 2011, leading to eventual support
nationwide. The Agency projects the AFI program will save over $100 million in
FY 2011 and up to $1 billion when fully implemented around FY 2013.

        SSITWR is a dedicated telephone number that allows individuals to report their
wages via a voice-recognition system. Stewardship data indicated that wage-related
overpayment dollars resulted from fluctuating income and failure to timely report an
increase in wages. To simplify the reporting process, SSA created the SSITWR. In
October 2009, SSA required that field offices recruit all recipients, deemors, 11 and
representative payees to report their wages via SSITWR. As of June 2010, SSA’s goal
was to increase the number of monthly reporters participating in the SSITWR initiative
to 20,000. SSA reported as of March 31, 2010, 24,107 unique wage-reporting
participants. SSA planned to continue promoting the use of SSITWR for wage reporting
through public information materials.

Plan for Ensuring the Initiatives Do Not Unduly Burden Program Access

OMB’s final requirement is that the Annual Report must contain the agency’s plan,
together with supporting analysis, for ensuring that initiatives undertaken to implement
the order do not unduly burden program access and participation by eligible
beneficiaries. OMB will provide further guidance for this requirement; therefore, this
requirement was not included in the Annual Report. Once available, we will review the
applicable guidance and ensure future Agency reports contain the required information.

Quarterly High-Dollar Report to the OIG and CIGIE
Along with the Annual Report to the OIG, the Executive Order also requires that each
agency with programs susceptible to significant improper payments under IPIA submit a
report to the OIG and CIGIE on any high-dollar overpayments identified by the agency.
According to the OMB Guidance, a high-dollar overpayment is any overpayment that

10
  Living Arrangement “A” is used primarily when a person is considered to be living in his/her own
household.
11
   A deemor is a person whose income and resources are required to be considered when determining
eligibility and computing the SSI payment amount for an eligible individual.


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)                   6
exceeds 50 percent of the correct amount of the intended payment under the following
circumstances:
1. Where the total payment to an individual exceeds $5,000 as a single payment or in
   cumulative payments for the quarter; or
2. Where the payment to an entity12 exceeds $25,000 as a single payment or in
   cumulative payments for the quarter.

SSA received clarifications from OMB on April 27, 2010 and June 2, 2010 for the
reporting of high-dollar improper payments. Based on the clarifications, SSA will review
improper overpayments identified during stewardship reviews. SSA issued the first
high-dollar report to the OIG on July 30, 2010 for the quarter ended June 30, 2010. We
will issue a report on our review of the Agency’s high-dollar report under a separate
cover.

Website Submission
According to the Executive Order, agencies are required to submit certain information,
subject to Federal privacy policies and to the extent permitted by law, to the improper
payments Website. 13 This information should include

1. names of the accountable officials;
2. current and historical rates and amounts of improper payments, including, where
   known and appropriate, causes of the improper payments;
3. current and historical rates and amounts of recovery of improper payments;
4. targets for reducing as well as recovering improper payments; and
5. The entities that have received the greatest amount of outstanding improper
   payments (or, where improper payments are identified solely based on a sample, the
   entities that have received the greatest amount of outstanding improper payments in
   the applicable sample). 14

Along with providing the above information to the improper payments Website
established by OMB, SSA also created a Website providing additional details on
improper payments.15 We reviewed the Website to ensure all information accurately
reflected the data reported in SSA’s Annual Report. We noted the Agency had

12
  An entity is a non-individual that owes an outstanding improper payment. The term entity excludes an
individual acting in either a personal or commercial capacity (that is, a sole proprietor) or Federal, State,
and local government agencies.
13
     http://www.paymentaccuracy.gov.
14
 OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix C, Part III,
Requirements for Implementing Executive Order 13520: Reducing Improper Payments, Section (C)(6)(s).
15
     http://www.ssa.gov/improperpayments.



SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)                          7
transposed one figure on the Website. We notified the Agency of the discrepancy, and
it corrected the error. The remaining data accurately reflected the information from the
Annual Report.

Risk and Oversight Assessed by the OIG

We assessed the level of risk of the SSI and RSDI programs. The Government
Accountability Office (GAO) identified the SSI program as high-risk in 1997, and after
legislation 16 was issued to improve overpayment recovery and deterrence tools, it was
removed from the list in 2003. However, as of 2003, GAO had identified all Federal
disability programs, including the disability portion of SSI and the DI programs, as high-
risk areas. GAO stated that current demographics have affected SSA’s ability to
manage workloads and provide timely and accurate disability decisions. Therefore, the
disability portion of the SSI program remains a high-risk area. In contrast, GAO has not
identified the RSI program as a high-risk program.

We continue to have oversight of the SSI and RSDI programs through various audits
and evaluations. For the period April 1, 2009 through March 31, 2010, we issued
108 reports, identifying over $4.2 billion in questioned costs and more than $6 billion in
Federal funds that could be put to better use. Our office will continue to monitor SSA's
programs by conducting and supervising comprehensive financial and performance
audits and by making recommendations to maximize the effective operations of its
programs most vulnerable to fraud and abuse.

ACCURACY OF REPORTED INFORMATION
We requested supporting documentation for all figures in the Annual Report. We noted
several instances for both monetary and non-monetary figures in which the supporting
documentation did not accurately reflect the Report’s data. The discrepancies however
were not substantive to the overall content of the report. A listing of these errors is in
Appendix E. We noted that SSA needed to perform a more detailed quality review of
the Annual Report and supporting appendices before submission.

We also noted that adequate support for some of the figures was not readily available
for review. The Agency did not retain adequate documentation to support some of the
figures in the Annual Report. We noted that SSA needed to retain supporting
documentation to validate the data reflected in its Annual Report.




16
     Foster Care Independence Act of 1999, Pub. L. No. 106-169.


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)       8
                                         Matters for Consideration
Overall, our review determined that SSA generally presented all required information
from Executive Order 13520 in its Annual Report accurately. The Agency met all
requirements of the Executive Order; however, SSA incorrectly reported several
monetary and non-monetary figures based on the supporting documentation provided.
The Agency should have detected the errors through its quality review process.
Subsequent to our review, SSA corrected the report and posted an updated version with
the correct figures to its improper payments website. 17 To ensure the accuracy of the
data in the Annual Report, SSA should improve the internal quality review procedures
surrounding the information in its Annual Report.

Our review also determined that supporting documentation for some figures was not
readily available for review. In some instances, the Agency did not retain the supporting
data and had to recreate it for our review.

To ensure that improvement in the prevention, collection, and detection of improper
payments continues, SSA should continue efforts to address improper payments.
Specifically, SSA should evaluate legislative proposals to determine those that would
have a positive effect on prevention, collection, and detection of improper payments.
Additionally, SSA should continue to seek funding to cover the full cost of program
integrity workloads, such as CDRs and SSI redeterminations.

SSA should also continue to evaluate existing programs to identify improvements in the
processes for preventing, collecting, and detecting improper payments. Continuous
efforts are needed to ensure improper payments are detected timely if they already
occurred.




17
     http://www.ssa.gov/improperpayments, Agency Accountable Official’s Report to the Inspector General.


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)                     9
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Executive Order 13520, Reducing Improper Payments
APPENDIX D – Defining Erroneous Payments
APPENDIX E – Discrepancies in Annual Report
APPENDIX F – OIG Contacts and Staff Acknowledgments




SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)
                                                                          Appendix A

Acronyms
    AFI              Access to Financial Institutions
    AFR              Agency Financial Report
    APP              Annual Performance Plan
    CDR              Continuing Disability Review
    CIGIE            Council of Inspectors General on Integrity and Efficiency
    DI               Disability Insurance
    FR               Federal Register
    FY               Fiscal Year
    GAO              Government Accountability Office
    GPO              Government Pension Offset
    IPIA             Improper Payments Information Act of 2002
    ISM              In-kind Support and Maintenance
    MEF              Master Earnings File
    OASI             Old-Age and Survivors Insurance
    OIG              Office of the Inspector General
    OMB              Office of Management and Budget
    OQP              Office of Quality Performance
    PAR              Performance and Accountability Report
    Pub. L. No.      Public Law Number
    RSDI             Retirement, Survivors and Disability Insurance
    RSI              Retirement and Survivors Insurance
    SEI              Self-Employment Income
    SGA              Substantial Gainful Activity
    SSA              Social Security Administration
    SSI              Supplemental Security Income
    SSITWR           Supplemental Security Income Automated Telephone Wage Reporting
                     System
    U.S.C.           United States Code


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)
                                                                        Appendix B

Scope and Methodology
Our objectives were to review the Accountable Official’s Annual Report to the Office of
the Inspector General (OIG), as required by Executive Order 13520, Reducing Improper
Payments, and determine whether the (1) figures presented were accurate and
(2) Agency complied with all requirements of the Executive Order. To accomplish our
objectives, we:

• Reviewed the Accountable Official’s Annual Report under Executive Order 13520,
  Reducing Improper Payments.

• Reviewed applicable Federal laws.

• Reviewed applicable Office of Management and Budget guidance.

• Reviewed the Fiscal Year (FY) 2008 Stewardship Review Reports for the Old-Age,
  Survivors and Disability Insurance (OASDI) and Supplemental Security Income (SSI)
  programs.

• Reviewed the FY 2009 Stewardship Review Report for OASDI and SSI.

• Reviewed the Improper Payments Information Act of 2002 section of the FY 2009
  Performance and Accountability Report.

• Requested data from the Offices of Financial Policy and Operations, Quality
  Performance, Payment Recovery and Policy, and the Chief Actuary to support the
  figures presented in the Annual Report.

• Analyzed the source data to ensure the accuracy of all figures.

• Analyzed the narrative of the report to ensure compliance with all requirements of the
  Executive Order.

We performed our review in May through August 2010 in Baltimore, Maryland. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)
                                                                        Ap p e n d ix C

Executive Order 13520, Reducing Improper Payments




SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)
SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)   C-1
SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)   C-2
SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)   C-3
SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)   C-4
SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)   C-5
                                                                                                                               Ap p e n d ix D

Defining Erroneous Payments 1
The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting status,
reasons for the payments, and their classification. There are two classifications.

•     Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered “erroneous” and may
      still be subject to recovery.
•     Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
      changes in administrative actions.

    Types of Payments             Program         Current Status           Reason for Overpayment/Underpayment                       Classification
                                   2          3
Payments following a             DI and SSI       Not currently     When SSA is required by law to make payments during the          Unavoidable
cessation of eligibility                          reflected as an   appeals process, these payments are not erroneous.
due to a continuing                               error
disability review
Payments made under              SSI              Reported as an    When due process requires that SSI payments continue,            Unavoidable
the Goldberg-Kelly                                unavoidable       although the Agency has determined that a payment reduction
due-process Supreme                               erroneous         or termination is in order, such payments are not erroneous.
Court decision                                    payment in the
                                                       4
                                                  APP
Payments made                    SSI              Reported as an    The law requires that SSI payments be made on the first of the   Unavoidable
incorrectly because of                            unavoidable       month based on projected income for that particular month.
program design                                    erroneous         Changes in the recipient’s status can occur during the month,
                                                  payment in the    which causes the recipient’s eligibility to change. Because
                                                  APP               SSA cannot prevent the overpayment, this situation should not
                                                                    be reflected in the Agency’s erroneous payment rate.


1
    Table provided by SSA’s Office of Financial Policy and Operations in July 2010.
2
    Disability Insurance (DI).
3
    Supplemental Security Income (SSI).
4
    Annual Performance Plan (APP).


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)                                                                 D-1
    Types of Payments        Program          Current Status            Reason for Overpayment/Underpayment                          Classification
                                 5
Payments issued after      OASI, DI,          Not currently     Dollars released after death (either electronically or in the form   Unavoidable
death                      and SSI            reflected as an   of a paper check) that are reclaimed by the Department of the        except for fraud
                                                    6
                                              error             Treasury or returned unendorsed should not be reflected in the       or misuse
                                                                Agency's erroneous payment rate. Conversely, payments
                                                                made after death that are improperly cashed or withdrawn, and
                                                                are subject to overpayment recovery, should be reported.

Non-receipt of payment     OASI, DI, and      Not currently     Duplicate payments issued in accordance with the Robinson-           Unavoidable
                           SSI                reflected as an   Reyf Court decision are unavoidable and should not be                except for fraud
                                              error             reflected in the Agency's reports on erroneous payments. The         or misuse
                                                                only exception is duplicates incorrectly sent to abusers.
Payments based on          DI and SSI         Not currently     Payments are not erroneous if they are the result of a medical       Should not be
medical eligibility                           reflected as an   improvement review standard or a situation where the                 included in the
                                              error             beneficiary would have been ineligible had the law permitted         erroneous
                                                                retroactive ineligibility.                                           payment
                                                                                                                                     estimate
Payments made for          DI and OASI        Not currently     When program design requires that the Agency make                    Unavoidable
Title II beneficiaries                        reflected as an   payments based on estimated earnings, these payments
based on earnings                             error             should not be considered erroneous.
estimates
Undetected error           OASI, DI, and      Not currently     The Agency should not reflect undetected error in its erroneous      Should not be
                           SSI                reported as an    payment rate unless it has evidence that a specific type of          included in the
                                              error             erroneous payment was made.                                          erroneous
                                                                                                                                     payment
                                                                                                                                     estimate
Duplicate payments to      Administrative     Not currently     Agency systems do not capture when the overpayment occurs;           Avoidable
attorneys, vendors, and    Expense            reported as an    however, this type of error does not meet the reporting
employees                                     error             threshold.




5
    Old-Age and Survivors Insurance (OASI).
6
 Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review
protocol.


SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)                                                                D-2
                                                                               Ap p e n d ix E

Discrepancies in Annual Report
Location in Annual Report                         Discrepancy Explanation

Page 2 – Designation of High Priority Programs    The Social Security Administration (SSA) reported
                                                  the Fiscal Year (FY) 2008 payment error rate for
                                                  administrative payments as .5 percent. Supporting
                                                  documentation showed .05 percent.


Page 2 – Designation of High Priority Programs    SSA reported the FY 2008 administrative payments
                                                  as $1.5 million. Supporting documentation showed
                                                  $1.5 billion.


Page 5 – Improper Payment Targets FYs 2010 –      SSA reported the FY 2010 target payments as
2012                                              $697,069 million. Supporting documentation
                                                  showed $697,169 million.


Page 16 – Supplemental Security Income            As of March 31, 2010, SSA reported
Automated Telephone Wage Reporting                22,103 successful wage reports. Supporting
                                                  documentation showed 22,067 successful reports.


Page 16 – Supplemental Security Income            As of September 2009, SSA reported
Automated Telephone Wage Reporting                10,250 unique wage-reporting participants.
                                                  Supporting documentation showed 10,253 unique
                                                  participants.

Page 17 – Continuing Disability Reviews           SSA reported FY 2008 Full Medical Continuing
                                                  Disability Reviews as 239,667. Supporting
                                                  documentation showed 239,661 reviews conducted
                                                  in FY 2008.


Page 19 – Cooperative Disability Investigations   SSA reported since inception in FY 1998,
Savings                                           Cooperative Disability Investigations efforts have
                                                  resulted in a yearly average savings of over
                                                  $350 million. Supporting documentation showed
                                                  this amount was actually the total for FY 2009 and
                                                  the first half of FY 2010.


Page 33 – Appendix B – Causes of Improper         SSA reported the causes of Supplemental Security
Payments, Retirement, Survivors and Disability    Income underpayments in FY 2008 for Child
Insurance and Supplemental Security Income        Support as $14 million. Supporting documentation
                                                  showed the actual underpayments were $1 million.




SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)
                                                                        Ap p e n d ix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager, Financial Audit Division

Acknowledgments
In addition to those named above

   Kelly Stankus, Auditor

   Lori Lee, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-20163.




SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board




SSA’s Plan to Reduce Improper Payments Under Executive Order 13520 (A-15-10-20163)
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
